Karl A. Racine

Brian E. Frosh

Attorney General for the
District of Columbia

Attorney General of Maryland

The Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, NE
Washington, D.C. 20543
November 18, 2020
Re:

Donald J. Trump v. District of Columbia, et al., No. 20-331
(Request for an extension of time to file a response to a petition for a writ of certiorari)

Dear Mr. Harris:
The response of the District of Columbia and the State of Maryland to the petition for a writ of
certiorari is currently due on November 30, 2020. Respondents respectfully request an additional
30-day extension of time to, and including, December 30, 2020, in which to file their response.
An extension is warranted due to the substantial likelihood that events between now and December
30 will materially affect the issues addressed in the response, the press of appeals our offices are
handling on behalf of our residents, and a simultaneous increase in litigation and decrease in our
offices’ available resources due to the worsening COVID-19 pandemic.
Counsel for petitioner consents to an extension to, and including, December 8, 2020, but does not
consent beyond that based on their view of the cutoff date for calendaring oral arguments this
Term.
Respectfully submitted,
KARL A. RACINE
Attorney General for the District of Columbia

BRIAN E. FROSH
Attorney General of Maryland

By:

/s/ Loren L. AliKhan
LOREN L. ALIKHAN
Solicitor General
Counsel of Record

By:

cc:

Jeffrey B. Wall, Acting Solicitor General
Counsel for Petitioner
(by first-class mail and email at SupremeCtBriefs@usdoj.gov)

/s/ Steven M. Sullivan
STEVEN M. SULLIVAN
Solicitor General

